                                        August 8,2000


 TO:             The File


 FROM:         -s

SUBJECT:        Case Closeout, #I-98070014


 1. This case was opened as a joint investigation w
                                                  i
    The investigation
    submitting duplicat        proposals and receiving duplicate awards.




                                                                           -   -
    There were no apparent incidents of duplicate material in the substantive sections,
    such as the Technical Objectives, Work Plan or the Statement of Work.

3. Former employees o
                         f      were interviewed. None of the forme e loyees were
   able to provide any in ormation regarding the alleged practice b y m o f submitting
   duplicate grant proposals to NSF or other federal agencies.

4. At this time, pending receipt of additional information, this case is closed.
